<html>
<title> - COMBATING TERRORISM: COORDINATION OF NON-MEDICAL R & D PROGRAMS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





     COMBATING TERRORISM: COORDINATION OF NON-MEDICAL R&D PROGRAMS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  VETERANS AFFAIRS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2000

                               __________

                           Serial No. 106-168

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
67-312                     WASHINGTON : 2000

                                 ______
                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, Veterans Affairs, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
ILEANA ROS-LEHTINEN, Florida         TOM LANTOS, California
JOHN M. McHUGH, New York             ROBERT E. WISE, Jr., West Virginia
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARSHALL ``MARK'' SANFORD, South     EDOLPHUS TOWNS, New York
    Carolina                         BERNARD SANDERS, Vermont 
LEE TERRY, Nebraska                      (Independent)
JUDY BIGGERT, Illinois               JANICE D. SCHAKOWSKY, Illinois
HELEN CHENOWETH-HAGE, Idaho

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              Kristine McElroy, Professional Staff Member
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 22, 2000...................................     1
Statement of:
    Chan, Kwai-Cheung, Director, Special Studies and Evaluations, 
      National Security and International Affairs Division, U.S. 
      General Accounting Office, accompanied by Sushil K. Sharma, 
      Associate Director, Special Studies and Evaluations, 
      National Security and International Affairs Division, U.S. 
      General Accounting Office; and Weihsueh Chiu, Evaluator, 
      Special Studies and Evaluations, National Security and 
      International Affairs Division, U.S. General Accounting 
      Office.....................................................     4
    Spencer, Carmen, Director, Chemical-Biological Defense 
      Directorate, Defense Threat Reduction Agency; Page 
      Stoutland, Director, Chemical and Biological 
      Nonproliferation Program, U.S. Department of Energy; Donald 
      M. Kerr, Assistant Director, Federal Bureau of 
      Investigation Laboratory Division, Federal Bureau of 
      Investigation; and Robert M. Burnham, Section Chief, 
      Domestic Terrorism-Counterterrorism Planning Section, 
      Federal Bureau of Investigation............................    26
Letters, statements, et cetera, submitted for the record by:
    Chan, Kwai-Cheung, Director, Special Studies and Evaluations, 
      National Security and International Affairs Division, U.S. 
      General Accounting Office, prepared statement of...........     7
    Kerr, Donald M., Assistant Director, Federal Bureau of 
      Investigation Laboratory Division, Federal Bureau of 
      Investigation, prepared statement of.......................    60
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Spencer, Carmen, Director, Chemical-Biological Defense 
      Directorate, Defense Threat Reduction Agency, prepared 
      statement of...............................................    29
    Stoutland, Page, Director, Chemical and Biological 
      Nonproliferation Program, U.S. Department of Energy, 
      prepared statement of......................................    51
    Watson, Dale, Assistant Director, Counterterrorism Division, 
      Federal Bureau of Investigation, prepared statement of.....    72

 
    COMBATING TERRORISM: COORDINATION OF NON-MEDICAL R & D PROGRAMS

                              ----------                              


                       WEDNESDAY, MARCH 22, 2000

                  House of Representatives,
       Subcommittee on National Security, Veterans 
              Affairs, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:10 a.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays and Blagojevich.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; J. Vincent Chase, chief investigator; R. Nicholas 
Palarino, senior policy advisor; Robert Newman, Kristine 
McElroy, and Thomas Costa, professional staff members; Jason M. 
Chung, clerk; David Rapallo, minority counsel; and Earley 
Green, minority staff assistant.
    Mr. Shays. I would like to call this committee meeting to 
order and to say that I have a great job being able to serve in 
this capacity, and I really appreciate the witnesses that are 
going to be participating today. It is a very important issue 
and we appreciate the good work of everyone involved. The 
purpose of this hearing is just to help us sort out where we 
are at and where we need to go and where we can improve, and 
that is ultimately the objective of everyone here.
    This Friday, in Connecticut, municipal, State and Federal 
emergency management officials will conduct a tabletop exercise 
to plan their response to a fictional but all too plausible 
incident of terrorism involving the use of chemical and 
biological weapons.
    Much of the technology they will discuss--detectors, 
protective gear, and decontamination equipment--is the producte 
of research and development [R&D], begun 10 to 15 years ago. 
Today, we ask how effectively today's Federal R&D efforts are 
focused on the needs of local first responders to meet 
tomorrow's terrorism threats.
    According to the General Accounting Office [GAO], research 
and development of non-medical technologies to meet chemical 
and biological threats is being conducted by several military 
and civilian agencies. In looking at four major R&D programs, 
GAO found all four are working on biological agent detectors, 
three are developing chemical detection and identification 
capability, and three are pursuing modeling and dispersal 
simulation. GAO found efforts to avoid duplication in these R&D 
programs informal and inconsistent.
    As we learned in our previous hearings, terrorism may know 
no boundaries, but bureaucratic barriers can be impervious to 
the need for interagency coordination and cooperation. The risk 
of overlap, waste, or missed opportunities to fill 
technological gaps is compounded by faulty or dated threat 
assessments. According to GAO, ``Several programs do not 
formally incorporate existing information on chemical and 
biological threats or needed capabilities in deciding what 
research and development projects to fund.''
    If the threat doesn't drive R&D commitments, what does? 
Critical decisions are being made today that will determine 
whether local police, firefighters, and emergency medical 
personnel will have the technology they need to confront the 
next generation of terrorism. Our witnesses this morning make 
many of those decisions, or are in a position to influence 
those who do. We look to them for assurances that Federal 
research and development programs will be effectively 
coordinated and efficiently run.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T7312.001
    
    Mr. Shays. Our first panel is members of the GAO: Kwai-
Cheung Chan, Director, National Security and International 
Affairs Division; Dr. Sushil K. Sharma, Associate Director, 
National Security and International Affairs Division; and 
Weihsueh Chiu, also from GAO.
    I believe we have just one testimony and that is from you, 
Mr. Chan.
    Mr. Chan. Yes, sir.
    Mr. Shays. We are happy to have you here, as always.
    Mr. Chan. Thank you, sir.
    Mr. Shays. Pardon me. I need to administer the oath. I wish 
I could just swear you in at the beginning of the year and just 
call it quits from then on.
    [Witnesses sworn.]
    Mr. Shays. Note for the record all three witnesses have 
responded in the affirmative.
    So we welcome your testimony. Thank you.

 STATEMENTS OF KWAI-CHEUNG CHAN, DIRECTOR, SPECIAL STUDIES AND 
   EVALUATIONS, NATIONAL SECURITY AND INTERNATIONAL AFFAIRS 
DIVISION, U.S. GENERAL ACCOUNTING OFFICE, ACCOMPANIED BY SUSHIL 
K. SHARMA, ASSOCIATE DIRECTOR, SPECIAL STUDIES AND EVALUATIONS, 
  NATIONAL SECURITY AND INTERNATIONAL AFFAIRS DIVISION, U.S. 
   GENERAL ACCOUNTING OFFICE; AND WEIHSUEH CHIU, EVALUATOR, 
    SPECIAL STUDIES AND EVALUATIONS, NATIONAL SECURITY AND 
 INTERNATIONAL AFFAIRS DIVISION, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Chan. Good morning, Mr. Chairman and members of the 
subcommittee. I am pleased to be here today to discuss our 
report on the coordination of Federal non-medical research and 
development programs addressing chemical and biological 
threats. We examined four programs which conduct non-medical 
R&D. These programs focus on developing systems and 
technologies for detecting, identifying, protecting, and 
decontaminating against chemical and biological agents.
    These programs are, one, DOD's Chemical and Biological 
Defense Program which was established under the National 
Defense Authorization Act for fiscal year 1994; the Defense 
Advanced Research Projects Agency's Biological Warfare Defense 
Program, established in 1996; three, the Department of Energy's 
Chemical and Biological Nonproliferation Program, established 
in 1997 in response to the Defense Against Weapons of Mass 
Destruction Act passed by Congress in 1996; and, four, the 
Counterterror Technical Support Program conducted by an 
interagency Technical Support Working Group [TSWG].
    I will discuss the following three issues. First, what 
processes are used to decide how to invest funds in R&D 
activities? Second, what similarities exist among Federal 
programs that conduct R&D in this area? Finally, I will present 
how these programs are coordinated in the activities.
    Before I discuss the results, let me briefly describe the 
context. Subsequent to the gulf war, concerns about the 
possible use of chemical and biological weapons in both 
military and civilian settings led Congress and Federal 
agencies to implement several new or expanded programs. Overall 
funding in this area has increased significantly in recent 
years.
    In addition, today several civilian and military agencies 
are conducting R&D designed to develop equipment to counter 
these threats. Total non-medical R&D funding in this area has 
increased from $76.5 million in fiscal year 1996 to a projected 
amount of nearly $190 million for fiscal year 2001, an increase 
of over 140 percent in 6 years.
    Let me turn to our findings. First, it is important to note 
that developing technology through R&D can be a lengthy 
process, sometimes extending to 10 years or more. Hence, it 
often does not offer a solution to immediate needs. To 
effectively plan and implement chemical and biological defense 
R&D, three key steps are to, one, identify, validate and 
prioritize chemical and biological threats; delineate the 
capabilities needed to address these threats; and allocate 
program resources to activities that develop those 
capabilities.
    Assessing threats may involve multiple dimensions, such as 
which particular chemical or biological agent might be used, 
how they may be delivered, and who might be the perpetrators. 
Delineating capability requires risk-based assessment of what 
specific capabilities are needed to address the threat.
    Before allocating program resources to R&D, one must 
evaluate the extent to which existing technology can address 
immediate needs and then identify gaps. R&D activities that are 
conducted outside this framework can carry the risk of 
developing a system that is technology-driven and not threat-
driven, or one that users do not want or need. We have 
previously reported that civilian programs to combat terrorism 
do not follow these steps. Specifically, we recommended that a 
national level comprehensive threat and risk assessment to 
combat terrorism be done.
    Second, we found that these programs have several 
similarities. For instance, all of them conduct applied 
research and develop prototype equipment to demonstrate the 
practical utility of proposed technologies. Two of the programs 
focus on threats to the military, and the other two focus on 
threats to civilians.
    However, the military and civilian user communities are 
concerned about many of the same chemical and biological 
agents, such as nerve agents, and possible perpetrators, such 
as terrorists. In addition, we found that these programs are 
seeking to develop many of the same capabilities, such as 
detection and identification of biological agents.
    Furthermore, in some instances the technologies they are 
pursuing are similar. Examples of this include mass 
spectroscopy and flow cytometry for detecting bio agents. We 
also found that in some cases these programs contract with the 
same laboratories to perform the same research and development 
work.
    Finally, I will discuss the extent of coordination among 
these programs. Although the four programs we examined 
currently use both formal and informal mechanisms for 
coordination, we found several problems that may hamper their 
coordination efforts.
    First, participation in coordination meetings is 
inconsistent. For instance, sometimes they do not include 
representatives of the civilian user community. Second, program 
officials cite a lack of comprehensive information on which 
chemical and biological threats to the civilian population are 
most important and what capabilities for responding to these 
threats are most needed.
    Third, programs which are growing rapidly, such as the 
Department of Energy's program, do not formally incorporate 
existing information on chemical and biological threats or 
needed capabilities in deciding which R&D projects to fund. 
Without effective coordination among these agencies, R&D 
efforts might be duplicative, resulting in waste, and important 
capability gaps might not be addressed.
    In summary, basic information is needed to compare the 
goals and objectives of the various program activities to 
better assess whether overlaps, gaps, and opportunities for 
collaboration exist. Much of this basic information, beginning 
with a comprehensive assessment of the threat and the risk, 
does not yet exist.
    This concludes my formal statement, and we will be happy to 
answer any questions you have.
    [The prepared statement of Mr. Chan follows:]

    [GRAPHIC] [TIFF OMITTED] T7312.002
    
    [GRAPHIC] [TIFF OMITTED] T7312.003
    
    [GRAPHIC] [TIFF OMITTED] T7312.004
    
    [GRAPHIC] [TIFF OMITTED] T7312.005
    
    [GRAPHIC] [TIFF OMITTED] T7312.006
    
    [GRAPHIC] [TIFF OMITTED] T7312.007
    
    [GRAPHIC] [TIFF OMITTED] T7312.008
    
    [GRAPHIC] [TIFF OMITTED] T7312.009
    
    [GRAPHIC] [TIFF OMITTED] T7312.010
    
    [GRAPHIC] [TIFF OMITTED] T7312.011
    
    [GRAPHIC] [TIFF OMITTED] T7312.012
    
    [GRAPHIC] [TIFF OMITTED] T7312.013
    
    [GRAPHIC] [TIFF OMITTED] T7312.014
    
    Mr. Shays. I would like to just ask you if the solutions 
are administrative or legislative to improving the 
coordination? And my second followup question is have we 
legislatively kind of reinforced the lack of coordination?
    Mr. Chan. I think over the years, since 1993, beginning 
with the bottom-up review, Secretary Aspin had noted this as 
one of those four major threats that is to be recognized. And 
there are a number of laws that have been passed over the years 
to encourage such activities, not only to provide threat and 
risk assessment as in the case that is directed, I believe, as 
Public Law 105-261, that the FBI does go and demonstrate the 
methodology in assessing threats and risk assessment, as well 
as the formulation of a number of these programs, as I stated 
in my oral statement, that are encouraged by Congress over the 
years to really develop these programs and try to, in fact, 
encourage them to address this threat.
    Mr. Shays. But my sense is that you are not seeing the 
coordination you want to see, correct?
    Mr. Sharma. If I could just expand on to this, I think on 
paper the----
    Mr. Shays. I just wanted to say, Mr. Chan, you sounded to 
me like Alan Greenspan then. I was trying to figure out what 
the answer was to my question there.
    Mr. Chan. I hope I am much younger.
    I believe that, in fact, legislatively there has been a lot 
of action taken. Congress had encouraged them to do that, but 
nevertheless I think we are still finding problems out there.
    Mr. Shays. OK, thank you.
    Yes?
    Mr. Sharma. I think the coordination mechanisms on pieces 
of paper do exist. However, one of the problems we are seeing 
here is that no one is specifically responsible for ensuring 
that duplication would not occur, or in cases where duplication 
has occurred, nobody has the responsibility for saying no, or 
nobody is in charge of ensuring that if there are some specific 
gaps that exist, they do get addressed through the R&D 
programs.
    Mr. Shays. Well, that is a pretty serious comment. It is 
helpful. I think we all experience this, but in my own office 
if three people are responsible for it, no one is responsible. 
So I always in the end say if this doesn't turn out the way it 
should, it is your fault, and I will point to one person. I 
might put it in the positive, but the bottom line is I always 
have one person ultimately responsible.
    Your point is we don't have one person ultimately 
responsible, which begs the next question. Is that because no 
one wants to have to choose who ultimately is responsible or it 
is difficult to decide who should be?
    Mr. Chan. Well, I think in the past they believed there is 
a demarcation between the military needs versus the civilian 
terrorism needs.
    Mr. Shays. Say that again.
    Mr. Chan. There seems to be in the past, I think, that each 
organization pursued their area according to their expertise. 
What I am trying to say is that the military traditionally had 
concentrated on the battlefield threat from nation states. 
However, over time, the concern about terrorism against the 
military are also increasing.
    So while the threat itself is similar and overlap, the 
priority in addressing them might be different. There are 
common threats now.
    Mr. Shays. Is this the concept of the stovepipe view of 
their mission?
    Mr. Chan. Well, that is a good way to put it, yes.
    Mr. Shays. But I still need an answer to that question, and 
then I am going to turn to staff to ask some questions and I 
would like to listen to your responses and then I may jump back 
in. But, ultimately, I am assuming, Mr. Chan, that you agree 
with Dr. Sharma's assessment.
    Given what Dr. Sharma said, do you think one person or one 
agency should be held accountable for the coordination of this 
effort?
    Mr. Chiu. The National Academy of Sciences in looking at 
coordination of R&D has recommended that in cases where 
multiple agencies are conducting R&D, there should be a lead 
agency who is responsible for leading that coordination effort.
    Mr. Shays. And have they suggested who it should be?
    Mr. Chiu. They haven't addressed it in this particular 
arena. They addressed it on a broader level.
    Mr. Shays. That is helpful. Thank you very much.
    I am going to have both Larry Halloran, the majority staff 
counsel, and David Rapallo, the minority staff counsel, as some 
questions.
    Larry.
    Mr. Halloran. In your statement, you mentioned an 
alternative to a threat-driven R&D system was a technology-
driven one. Did you come across an example of a technology that 
was kind of driving its own development process that had no 
user at the other end, a gizmo nobody asked for?
    Mr. Chan. Well, I I can approach it from the view that in 
the Department of Energy, when the program was in place the 
approach that was taken was looking at ways to maximize the 
utility and capability of the scientists that are there, how 
best to use them. And so in defining what the threat is and 
then see what the needs are, it went in a different direction, 
which is to optimize the utility of the people and their 
expertise.
    Now, it may eventually converge to the same point, but 
nevertheless I think----
    Mr. Halloran. With a lot of luck.
    Mr. Chan [continuing]. Our view is that it should start 
from a threat-driven approach, and then you assess the risk, 
then you prioritize the capability you need to achieve, and 
then ultimately decide where to go. It is a process issue that 
we are raising here.
    Mr. Halloran. Right, and let's stay with the process. I 
know you didn't make formal recommendations in the report, but 
here you can. What would you see as a mechanism that might be 
used to develop requirements on the civilian side? I know DOD 
has a fairly complex requirements iteration process, and the 
civilian R&D side doesn't seem to have that. Is there a 
paradigm out there for coordination and for the requirements 
development process that they might look to?
    Mr. Chan. Well, I think the first observation one would 
make is that in DOD such a process is pretty well in place over 
time. I mean, this is something that they are used to, not only 
in addressing threats, but also developing a strategy by which 
you set requirements and the mission needs, as well as 
examining near-term, mid-term and far-term capability that 
might be needed, and then ultimately come out with so-called 
science and technology objectives, and so on. So the process 
itself within DOD is pretty well established.
    With the civilian side, this is a very different demand to 
really try to figure out where to go. First of all, in the 
national response system under EPA in addressing chemical 
accidents both on the mobile and stationary side--that means 
transportation where you have accidents with chemicals--you do 
have the local emergency planning team there, and first 
responders, and so on.
    Now, there is sort of an infrastructure available 
organizationally. Whether they are well trained to address not 
only chemical accidents, but all the way to the chemical 
agents, which is like warfare, and biological agents, that is 
clearly something new. And it is done in such a way that has 
always been with multiple-agency involvement, from the 
Department of Justice, involving the FBI, to EPA, to the 
cleanup problems, to even national labs doing analysis to 
figure out to what degree the civilian population might be 
affected if this happens. But it is not a very top-down way to 
approach the issue. So I think, you know, they are beginning to 
try to figure out how to do that better.
    Mr. Halloran. One final question. You noted in your 
statement and in the report that you didn't see much success, 
maybe some effort in involving civil users in the coordination 
process. What was the reluctance or what, in your view, caused 
that to not work? They just didn't think of it, or they tried 
and failed?
    Mr. Sharma. One of the things that DOE officials told us 
the reason that, you know--I mean, they gave us two reasons, 
essentially, that nobody has done the threat assessment, and as 
far as the users are concerned they really don't know what they 
want, unlike DOD users.
    I think it is partially true, but not correct in the sense 
that when you think about the civilian and military threats, 
there are artificially created boundaries. You do need some 
common things, such as detectors to detect what agents 
individuals have been exposed to, collective and individual 
protection systems, and decontamination systems. So these are 
sort of generic kinds of things, and DOD has years of 
experience.
    Now, users, are very different. They are coming from 
different States, you know. They are first responders, police, 
firemen, and so on and so forth. But, basically, everybody has 
awareness within those three categories of what do they need. 
What DOE has not done is to make an effort to go beyond what 
their jurisdiction, which is, you know, they are supposed to do 
R&D and, you know, they are independent, instead of making an 
effort to try to reach them and try to do a systematic need 
assessment, as well as recognizing that R&D does not offer any 
immediate solution. So you must do an assessment of the 
available technology and say to the users, look, for specific 
threats for the time being you could use ``x,'' ``y'' and 
``z,'' and here are some of the gaps that none of these 
currently available technologies could offer. Therefore, we are 
going to do the R&D.
    So what I am saying is that DOE has to do two things. They 
have to do an outreach to the users and do some education at 
the same time in terms of what is available and what is not 
available, what they can use and work on, and go from there.
    Mr. Halloran. Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    I will turn to Dave Rapallo.
    Mr. Rapallo. With the varied types of end users on the 
civilian side, what are some ways that agencies could solicit 
requirement information and other types of information from the 
end users?
    Mr. Sharma. I think one of the processes is followed by 
TSWG, and they have a process whereby they invite responders 
from each State and it is an open meeting. That is one such 
area where DOE can expand on. I mean, it is not that there are 
no mechanisms available or it is impossible to do.
    Mr. Chan. But I think before you do that, you need to 
provide what are the likely threats to those people so that 
they can understand what they are. And, second, what are the 
priorities which ones are the most important ones. And, three, 
what kind of capability gaps do they have now in addressing 
those possible threats, and the likelihood of these threats and 
the lethality of these threats, and ultimately how best to be 
informed.
    That way, they can say, hey, we don't have anything to do 
this, OK? So either you go out and say, OK, do we have current 
capability to address that or do we need to develop some kind 
of R&D program for a system or develop a technology by doing 
so.
    I think the reason why we keep raising the question about 
the threats assessment is that we are seeing a tremendous 
overlap between the military side and the civilian side. There 
is no way to distinguish pretty soon, particularly in the 
chemical and biological arena. So in that case, the only real 
difference you find is the selection of the agents that might 
be of concern to the domestic side, and the priorities might be 
quite different than the military use of such weapons of mass 
destruction.
    So they are different, except the threats are similar. And 
then I think with the knowledge the users have, that way at 
least they can sort of react to it, because if you go out there 
and ask them now, most likely they would just look at the 
current stuff based on the experience they have with chemical 
accidents.
    Mr. Rapallo. I just have one followup. Do you know the 
status of ongoing efforts for threat assessment at the civilian 
agencies, at FBI and other agencies?
    Mr. Chan. Yes. I think Public Law 105-261 which I commented 
on before directed the FBI to do a risk and threat assessment, 
and do some demonstrations. I think that is sort of the 
beginning of it. What we are looking for is ways to prioritize 
and then ultimately determine the capability and needs, and 
then develop future R&D programs out of that effort.
    Mr. Sharma. But we don't know whether or not they have 
actually done that.
    Mr. Shays. I am sorry. I am not hearing you. Could you 
speak a little more into the mic?
    Mr. Sharma. Although the public act requires them to do it, 
our understanding is that they have not done that, and perhaps 
you can ask the FBI when they come next what their road map is 
with regard to the threat assessment.
    Mr. Rapallo. Thank you.
    Mr. Shays. What will be the effect on chemical and 
biological defense projects if DOD and DOE merge their R&D road 
maps? What will be the effect?
    Mr. Sharma. I think if they do merge, one of the things 
will be that you will identify right away what are some of the 
projects that are duplicative, and you could then minimize or 
eliminate the duplication, especially if it is not planned 
duplication. And you could then curtail waste and use those 
resources to address more important questions that are not 
currently being addressed.
    Mr. Shays. Did any of you look at how civilians view the 
technology, versus the military, the users? Do the civilians, 
for instance, have a lower tolerance for equipment functioning 
a certain way versus the military?
    Mr. Chan. Well, we did a study about 4 years ago. You are 
taxing my memory now. What we found, of course, is that on the 
civilian side they are less aware of the possible agents that 
could be used. And, second, they really have to rely on 
expertise that is in EPA, such as to identify agents. And often 
they are not really trained to know what to do. I am talking 
about, given the incident occurs, what follows. That is where 
it is wanting often.
    Mr. Shays. What would be the most important question I 
could ask each of the next panelists?
    Mr. Chan. The most important question?
    Mr. Shays. Yes. I am trying to get to the bottom line.
    Mr. Chan. I think the most important one is really ask them 
not to look from the agency's perspective what they are doing, 
but rather have them address it from the people's perspective 
in terms of the community; given these kinds of threats, what 
kinds of concerns they may have and what kinds of things they 
might need.
    Instead of looking at it from the agency perspective, I 
think you have to sort of look at it from the user perspective 
because it is affecting the community and I think that needs to 
be represented in some form. But before they can respond to 
that, they need to understand what potential threat there might 
be. So you need to lay that out first and say, hey, this is 
what happens to you if this happens, then what would your needs 
be.
    I think you get a lot of statements about this is my agency 
and this is how we are addressing that issue rather than----
    Mr. Shays. So, in one sense, it is asking each of them who 
their customer is?
    Mr. Chan. Exactly.
    Mr. Shays. And have them define to me who their customer 
is.
    Mr. Chan. That is the quick and short answer.
    Mr. Shays. That is helpful.
    Is there any comment that any of the three of you would 
like to make before we get on to the next panel?
    Mr. Sharma. One of the questions I would ask is how is the 
nature of the threat different between the military and 
civilian. An agent is an agent, and while the magnitude of the 
effect might be different in a battlefield scenario versus in a 
civilian exposure, basically you are dealing with the same 
category of agents. And how that threat would impact the R&D 
efforts--a second question is while DOD has been doing a lot of 
research over the years and has developed many technologies, 
and that expertise ought to be utilized and have some effect, 
positive contribution, on the civilian side. But maybe civilian 
agencies have done some assessment and they find what DOD has 
done is good for nothing. I don't know, but you could ask them.
    Mr. Shays. OK, thank you.
    Mr. Chiu. Following up on the customer issue, how they are 
going to ensure--once some of this threat assessment and risk 
assessment comes out, how will they ensure linkages between the 
various elements, between the threat and developing the 
capabilities and the R&D, because one of the things that we 
found was that there seemed to be some gaps in establishing 
those linkages.
    Mr. Shays. Thank you.
    We have been joined by the ranking member, Mr. Blagojevich, 
who serves on our Armed Services Committee as well.
    I think you wanted me to go on to the next panel.
    Mr. Blagojevich. Yes.
    Mr. Shays. OK, so I thank all of you. As always, you 
provide very helpful information to our committee and a nice 
introduction to the next panel, so I thank you very much.
    Mr. Chan. Thank you.
    Mr. Chiu. Thank you.
    Mr. Shays. Let me just call the next panel and then I am 
just going to take care of some housekeeping.
    We have Mr. Carmen J. Spencer, Director of Chemical and 
Biological Defense, Defense Threat Reduction Agency. I might 
just point out that I think Mr. Spencer is retiring, and I want 
the record to show he is not retiring because he came before 
this committee.
    Dr. Page Stoutland, Director, Chemical and Biological 
Nonproliferation Program, Department of Energy; Dr. Donald M. 
Kerr, Assistant Director, Federal Bureau of Investigation 
Laboratory, Federal Bureau of Investigation; and Mr. Robert M. 
Burnham, Section Chief, Domestic Terrorism-Counterterrorism 
Planning Section, Federal Bureau of Investigation.
    Before I ask you to stand up--don't stand up quite yet--I 
will just ask unanimous consent that all members of the 
subcommittee be permitted to place any opening statement in the 
record, and that the record remain open for 3 days for that 
purpose. Without objection, so ordered.
    I ask further unanimous consent that all Members be 
permitted to include their written statement in the record. 
Without objection, so ordered.
    If you gentlemen would stand, I will swear you in, and then 
we will get started here.
    [Witnesses sworn.]
    Mr. Shays. Note for the record that all four witnesses 
responded in the affirmative.
    I think you are seated the way I called you, and we will 
just go right down the line. We are going to turn the lock on 
for 5 minutes and then we will roll it over for another 5 
minutes, so you have a sense of where we are at. But your 
testimony is very important, especially in areas that are 
pretty new to us and this is an area that is fairly new to us.
    Mr. Spencer.

  STATEMENTS OF CARMEN SPENCER, DIRECTOR, CHEMICAL-BIOLOGICAL 
  DEFENSE DIRECTORATE, DEFENSE THREAT REDUCTION AGENCY; PAGE 
 STOUTLAND, DIRECTOR, CHEMICAL AND BIOLOGICAL NONPROLIFERATION 
 PROGRAM, U.S. DEPARTMENT OF ENERGY; DONALD M. KERR, ASSISTANT 
DIRECTOR, FEDERAL BUREAU OF INVESTIGATION LABORATORY DIVISION, 
FEDERAL BUREAU OF INVESTIGATION; AND ROBERT M. BURNHAM, SECTION 
 CHIEF, DOMESTIC TERRORISM-COUNTERTERRORISM PLANNING SECTION, 
                FEDERAL BUREAU OF INVESTIGATION

    Mr. Spencer. Mr. Chairman and distinguished committee 
members, I am honored to appear before your committee today to 
address your questions regarding the Defense Department's 
Chemical and Biological Defense Program.
    I am Mr. Carmen Spencer, the Director of the Chemical and 
Biological Defense Directorate within the Defense Threat 
Reduction Agency. In this capacity, I am responsible for 
managing, directing and executing the armed forces joint NBC 
defense, research, development, and acquisition programs to 
ensure all our armed forces can survive, fight and win on a 
battlefield contaminated with chemical or biological weapons.
    The Department's Chemical and Biological Defense Program is 
threat-driven; it is not technology-driven. The chemical and 
biological weapons threat is potentially increasing in 
diversity and frequency. Currently, there are over 20 countries 
with known or suspected chemical and biological weapons 
programs. Assessing the threat is complicated by several 
interrelated changes, including the proliferation of weapons, 
technological advances, unstable political regimes, shifting 
regional power balances, and the increasing threat of 
terrorism.
    The continued frequent deployment of U.S. forces worldwide 
makes assessing the threat more difficult. Further, because the 
countries which are of the greatest concern to the United 
States are also in regions in which the United States has well-
defined national security interests, it is of paramount 
importance that we continue to maintain a credible, robust 
capability to protect our forces and provide them capabilities 
to operate effectively in a chemical or a biologically 
contaminated environment.
    The chemical and biological threat drives warfighting 
commanders and CINCs and services requirements. The CINCs and 
services identify the capabilities needed to survive, fight and 
win. These identified capabilities form the basis for all 
requirements for the research and acquisition community. The 
Defense Intelligence Agency provides us with continually 
updated reports and assessments. These reports assess the 
effect of adversaries' weapons systems on how we fight.
    The commanders-in-chief identify their priorities which are 
supported by our joint NBC defense program. Our joint user 
community evaluates materiel, training and doctrinal 
improvements to provide the necessary capabilities for our 
warfighters. If a materiel solution becomes necessary, the 
joint user community generates requirements in the form of 
mission needs statements and joint operational requirements 
documents. The result is that our programs and technologies are 
driven by validated threat assessments and user mission 
requirements, not by technologies.
    Our Chem-Bio Defense Program coordinates with several 
relates efforts, including the Defense Advanced Research 
Projects Agency [DARPA]; the Department of Energy; the 
Department of Health and Human Services. And we have many 
international cooperative efforts.
    DARPA is charged with seeking breakthrough concepts and 
technologies. DARPA's biological warfare defense program is 
intended to complement the DOD Chem-Bio Defense Program by 
anticipating threats and developing novel defenses against 
them. The Chem-Bio Defense Program has programmed funding to 
facilitate the transition to acquisition of any demonstrated 
DARPA technologies that may meet warfighter needs.
    The Department of Energy initiated an effort to develop 
chemical and biological defensive capabilities for first 
responders and protection against terrorism attacks within the 
United States. The Department of Defense program has leveraged 
the Department of Energy program by funding specific DOE 
efforts that may have military applications.
    Additionally, coordination is achieved by the Department of 
Energy participation as a non-voting member of our Joint NBC 
Defense Board, DOE participation in the Chem-Bio Defense 
Program science and technology reviews, and regular meetings 
with the Department of Energy and visits to their national 
laboratories as well.
    The Department of Defense's Chemical and Biological Defense 
Program and DARPA and the Department of Energy's Chemical and 
Biological Nonproliferation Program have worked together to 
provide a report to Congress on our cooperative work in 
chemical and biological defense science and technology. It is 
prepared through an interagency coordination mechanism known as 
the Counterproliferation Program Review Committee Focus Group, 
which involves the Department of Defense, the Department of 
Energy, and the intelligence community.
    The Department of Defense also participates in the National 
Security Council-led Weapons of Mass Destruction Preparedness 
Group, which coordinates activity in the U.S. Government toward 
preventing, detecting and responding to terrorist release of 
weapons of mass destruction, and toward more effectively 
managing the health, environmental and law enforcement 
consequences of such an incident.
    This body does not address or oversee the DOD Chem-Bio 
Defense Program's mission of providing the warfighter with the 
capability to operate effectively in a chemical and biological-
contaminated environment. However, technology development 
efforts within the Department of Defense, including the 
Chemical and Biological Defense Program, that can contribute 
directly to the domestic preparedness mission are coordinated 
with other agency programs through this R&D subgroup which is 
chaired by the White House of Science and Technology Policy.
    The Department's fiscal year budget request for the 
Department of Defense Chem-Bio Defense program is approximately 
$836 million. This is an increase of over $100 million from 
fiscal year 2000. $362 million is being applied for research, 
development, test and evaluation, and $474 million will go 
toward providing equipment to our warfighters.
    In summation, the Department of Defense Chem-Bio Defense 
Program responds to the threat-requirements-programs process. 
Programs are in place to respond to user needs and shortfalls. 
Oversight and management of the Department of Defense Chem-Bio 
Defense Program continues to improve and does comply with 
Public Law 103-160. The Department is on the right azimuth for 
fielding needed, improved chem-bio defense equipment to our 
armed forces to meet warfighter needs. The continued support of 
Congress and implementation of current plans will continue to 
improve joint force readiness.
    Thank you very much.
    [The prepared statement of Mr. Spencer follows:]

    [GRAPHIC] [TIFF OMITTED] T7312.015
    
    [GRAPHIC] [TIFF OMITTED] T7312.016
    
    [GRAPHIC] [TIFF OMITTED] T7312.017
    
    [GRAPHIC] [TIFF OMITTED] T7312.018
    
    [GRAPHIC] [TIFF OMITTED] T7312.019
    
    [GRAPHIC] [TIFF OMITTED] T7312.020
    
    [GRAPHIC] [TIFF OMITTED] T7312.021
    
    [GRAPHIC] [TIFF OMITTED] T7312.022
    
    [GRAPHIC] [TIFF OMITTED] T7312.023
    
    [GRAPHIC] [TIFF OMITTED] T7312.024
    
    [GRAPHIC] [TIFF OMITTED] T7312.025
    
    [GRAPHIC] [TIFF OMITTED] T7312.026
    
    [GRAPHIC] [TIFF OMITTED] T7312.027
    
    [GRAPHIC] [TIFF OMITTED] T7312.028
    
    [GRAPHIC] [TIFF OMITTED] T7312.029
    
    [GRAPHIC] [TIFF OMITTED] T7312.030
    
    [GRAPHIC] [TIFF OMITTED] T7312.031
    
    [GRAPHIC] [TIFF OMITTED] T7312.032
    
    Mr. Shays. Thank you very much.
    We are going to have two votes, so we might as well go 
until we have to leave because then we have to wait for the 
next vote.
    So we are probably going to interrupt you, Dr. Stoutland, 
but why don't you start?
    Mr. Stoutland. I would like to thank the chairman and the 
members of the subcommittee for the opportunity to appear 
before you and describe our efforts to counter the use of 
weapons of mass destruction.
    My name is Page Stoutland and I am the Director of the 
Department of Energy National Nuclear Security Administration's 
Chemical and Biological Nonproliferation Program. Today, I will 
concentrate on the important topic of equipment and operational 
requirements and coordination as they relate to chemical and 
biological research and development programs.
    The Department's Chemical and Biological Nonproliferation 
Program [CBNP] as we refer to it, was initiated in response to 
the fiscal year 1997 Defense Against Weapons of Mass 
Destruction Act. The mission of the program is to develop, 
demonstrate and deliver systems and the supporting technologies 
that will lead to major improvements in the U.S. capability to 
prepare for and respond to chemical or biological attacks.
    Technology plays a critical role in defending the U.S. 
population against attacks with chemical and biological 
weapons. These emerging threats, whether of domestic or foreign 
origin, are rooted in science and technology, and any effective 
response must draw on similar expertise.
    Our program has three principal elements: analytical 
studies, technology development, and domestic demonstration 
application programs. Analytical studies are used to help guide 
the overall program direction, as well as individual technical 
areas. One overarching study was initiated last year to examine 
alternative system concepts for defending cities against 
chemical or biological attack. This was done jointly with the 
Defense Threat Reduction Agency.
    Technology development is the core program element. The 
program targets not incremental improvements, but major 
capability enhancements that can be achieved in the 3 to 5-year 
timeframe. There are currently four areas of specific focus: 
detection, biological foundations, modeling, and 
decontamination.
    The third program element consists of domestic 
demonstration application programs which bring together 
individual technologies into more capable systems in the 2 to 
3-year timeframe. This integration is important, since it is 
usually only at the system level that problems are solved. The 
goal of these programs is to integrate current technology into 
prototype operational systems directed at specific 
applications.
    I now turn to the issues central to this hearing: assessing 
the chemical and biological threats, defining non-medical R&D 
requirements, and more generally determining what we do within 
the CBNP.
    In a general sense, our R&D investments are guided by a 
process that considers the threat and related vulnerabilities, 
and the benefit that a particular technology or system would 
have were it to be developed. Within this context, we have 
undertaken a number of specific activities to identify the 
highest impact areas for R&D.
    First, characterizing the threat environment is important 
for guiding our R&D activities. DOE does not conduct threat 
assessments in the chemical and biological areas. Instead, we 
rely on the FBI, the defense and intelligence communities, and 
public health assessments as appropriate.
    These assessments which, for example, consider the agents 
most likely to be used, are then used to guide our R&D 
activities. Implicit in this process is the recognition of the 
uncertainties inherent in estimating the nature and magnitude 
of the threat, and that these uncertainties must be factored 
into our planning.
    Threat assessments as well as other factors are necessary 
for the formulation of equipment and operational needs. These 
needs will ultimately be the result of a complex process that 
involves policymakers, technologists, first responders, the 
medical community, and others. As discussed in the GAO report, 
today there are no formal requirements for countering the 
domestic chemical and biological threat. This is not because we 
or others haven't considered the issue, but it is rather 
representative of the challenges implicit in arriving at a set 
of needs or requirements that would serve a diverse set of 
users and act as meaningful targets for R&D programs.
    In this environment, one must consider new mechanisms to 
identify user needs and to guide R&D programs. Within the CBNP, 
we sponsor two sets of activities that, in our view, contribute 
to the overall U.S. chemical and biological defense strategy 
and identify the corresponding needs or requirements.
    These activities buildupon our extensive interactions with 
potential technology users, and participation in the numerous 
processes designed to more clearly understand their needs. For 
example, we participate in the NSC-led Weapons of Mass 
Destruction Preparedness Group. Within this group exists an R&D 
subgroup chaired by the White House Office of Science and 
Technology.
    We fully support these processes, but in our view more is 
required. Specifically, we use analytical studies to aid in the 
development of an overall U.S. strategy to counter the CB 
threat. Our Defense of Cities Study aims to develop an 
analytical framework by which we can compare the various 
chemical and biological defense options available to 
policymakers. This will help to identify at a high level which 
components--for example, technologies--would have the highest 
value in terms of a response system and where further R&D might 
be most valuable.
    The most important component of our program for 
understanding user needs is our demonstration programs, or 
DDAPs as we call them. These programs, as I mentioned earlier, 
are designed to field and demonstrate complete prototype 
systems that use technology developed within the CBNP or 
elsewhere. In doing this, we work closely with users who host 
the demonstration and in an iterative way determine their 
needs.
    It is important to emphasize here the important difference 
between a stated need for a particular piece of hardware and 
the requirement for a system with particular performance 
specifications.
    Mr. Shays. Dr. Stoutland, I am going to let you summarize 
when we get back. I am very sorry, but we are going to go vote. 
I am sorry that we have to wait for another vote, so if you 
want to get a Coke or something, you probably have 15 minutes 
to do it.
    So we will stand adjourned.
    [Recess.]
    Mr. Shays. In 20 minutes, we are going to have another 
vote, so we will see how that unfolds.
    Dr. Stoutland, please feel free to conclude.
    Mr. Stoutland. OK, I will continue and summarize.
    The most important component of our program, as I was 
saying, are our demonstration programs. These are designed to 
field and demonstrate complete prototype systems that use 
technology developed within our program or elsewhere. In doing 
so, we work closely with users who host a demonstration and in 
an iterative way understand their needs.
    In order to provide you with some more insight into one of 
these programs, I would like to briefly describe one of our 
demonstration programs, PROTECT. With PROTECT, we are working 
closely with the Department of Transportation and a number of 
major U.S. subway systems to examine systematically and 
rigorously the vulnerability of subway systems to chemical or 
biological attack. Using computer models, we can estimate not 
only what the effects from an attack might be, but how to most 
effectively respond by, for example, changing the air flow in a 
subway system.
    We are now aggressively moving forward both in testing 
chemical detectors and improving the computer models and 
information systems necessary to realize these goals. Next 
year, a demonstration of the complete system will take place 
involving one subway station, and the following year a network 
of five stations will be demonstrated. This demonstration will 
result in the transit authorities being able to assess in their 
subway the value of such a system, and provides important 
guidance to our R&D program about where further technology 
improvements are needed.
    Finally, let me address the issue of coordination. The DOE 
program is designed to complement other U.S. Government 
programs, while relying on the unique capabilities of the DOE 
laboratories. We either participate directly or follow the 
status of a number of interagency coordination mechanisms.
    In addition to these groups, we participate in a number of 
formal coordination mechanisms with the defense and 
intelligence communities, such as the Counterproliferation 
Program Review Committee. Within the last year, the 
Counterproliferation Program Review Committee has formed a 
chemical and biological defense focus group to specifically 
help coordination in the chemical and biological area. Informal 
coordination occurs routinely via information exchanges between 
our program and other agencies, and we sponsor an annual 
meeting typically attended by over 200 people to review the 
status of our program.
    Let me conclude by saying that the DOE program if focused 
on addressing the high-leverage areas, particularly detection, 
that have been identified as being central to an effective 
response to chemical and biological attacks. Our program builds 
upon existing capabilities of the DOE laboratories and has 
begun to reach out to the industrial and academic communities.
    The chemical and biological threat presents enormous 
challenges. We are committed to fully utilizing the 
capabilities of the DOE and its laboratories in order to meet 
these challenges. In carrying out this commitment, we will 
continue to work closely with others to understand the evolving 
threat, to better appreciate the needs of technology users, and 
to coordinate our program with those in other agencies.
    Thank you. I would be happy to answer any questions you may 
have.
    [The prepared statement of Mr. Stoutland follows:]

    [GRAPHIC] [TIFF OMITTED] T7312.033
    
    [GRAPHIC] [TIFF OMITTED] T7312.034
    
    [GRAPHIC] [TIFF OMITTED] T7312.035
    
    [GRAPHIC] [TIFF OMITTED] T7312.036
    
    [GRAPHIC] [TIFF OMITTED] T7312.037
    
    [GRAPHIC] [TIFF OMITTED] T7312.038
    
    Mr. Shays. Thank you very much, Dr. Stoutland.
    Dr. Kerr.
    Mr. Kerr. Mr. Chairman, members of the committee, thank you 
for the opportunity to speak to you on behalf of the FBI.
    I am Assistant Director in charge of the FBI Laboratory 
Division, and while we have the word ``laboratory'' in our 
name, we are a little different from what you might expect, in 
that while we do forensic examinations of evidence, we also 
provide a great deal of operational support, particularly in 
the counterterrorism area.
    We work for the FBI field offices, of whom there are 56, so 
they are a principal customer, if you will. We work for other 
law enforcement agencies in providing training and equipment, 
which I will come to, particularly again in the 
counterterrorism area. And we work with those who manage our 
investigative programs in the FBI, of whom Bob Burnham, to my 
left, is one.
    The kind of support that we provide and where our needs are 
made clear can be exemplified by what happened over the 
millennium weekend, where all eight of the sections of our 
division were involved, and some 1,100 people in those 
sections. Of our 43 units, 20 were directly involved, including 
those in electronic and physical surveillance, people doing 
chemistry, explosives examination and latent prints on Mr. 
Rassam's car and what came across the border in it. And we also 
deployed our explosives render safe teams here in the national 
capital area, the hazardous materials response capability, and 
our crisis communications people. So we are, if you will, a 
tactical technology organization.
    Most recently, we have been operating in Irvine, CA, where 
the mayor had to declare an emergency because of a biological 
threat. But the biological threat was overlain by explosives 
and weapons. You may have read about that case where, in fact, 
the doctor who had all those materials was killed. We ran the 
crime scenes at the embassy bombings in Africa two summers ago, 
and of particular moment for this committee the Larry Wayne 
Harris case with the anthrax samples in Las Vegas was one that 
we had to respond to. So we learn by our casework.
    The counterterrorism activities and the support today 
underlie the five rapid deployment teams that the FBI has stood 
up around the country. They are based on our largest field 
offices; two of them are here in Washington. And there is a 
technical component now to each of those teams, with the 
equipment to go with it. We also have the disaster squad 
responsibility that deals with aircraft crashes, investigations 
like TWA 800, more recently Egyptair and the Alaska Airlines 
crash.
    The kinds of capabilities we offer more broadly are things 
like the EXPRESS data base, which is the explosive Reference 
search system, and that is funded by the Technical Support 
Working Group in conjunction with the FBI, and it is to provide 
data to all that might confront an explosive device in order to 
deal with it properly.
    We operate the Hazardous Device School in Huntsville, AL. 
That is the school that trains all of the State and local bomb 
techs today across the country, as well as the FBI's own.
    Mr. Shays. That is a very popular school, I might add.
    Mr. Kerr. Thank you.
    Mr. Shays. I mean, there is a long waiting list, as I 
understand it.
    Mr. Kerr. Yes, sir, and we are hoping that, in fact, we are 
going to be able to increase the capacity of it in the next few 
years. That school now includes a module of training on weapons 
of mass destruction threats, and so all of the people going 
through that school or recertified by it are being exposed to 
the current generation of capability that there is.
    In terms of R&D highlights, I should point out that we 
don't have the resources or the ambition to replicate what 
other agencies of the Government have in place. So through 
memoranda of understanding with the Department of Energy, with 
the Army Fort Dietrick people, with Edgewood Arsenal and others 
across the country, we have the opportunity to use their 
specialized facilities and people in many of our programs. So, 
for example, in the Larry Wayne Harris case we brought the 
suspected anthrax samples back here to Fort Dietrick for 
analysis because they have the containment facilities and the 
expertise to do that quickly.
    SBCCOM at Edgewood has developed a fly away laboratory for 
us. It was deployed, for example, to the World Trade 
Organization meeting in Seattle. It will be here in Washington 
for the IMF meeting. But, in fact, it is a replica of the 
treaty lab that that command had developed for treaty 
monitoring purposes, with modifications to make it suitable for 
law enforcement.
    The Department of Energy interaction, starting in 1998, has 
led to 10 projects at the national labs and a number of other 
more specialized tasks that we fund out of counterterrorism 
budget. In 1999, we took advantage of expertise at MIT's 
Lincoln Lab, which is a Department of Defense laboratory where 
they are developing a simplified DNA extraction capability for 
field use.
    This current year, the large vehicle bomb disablement 
project is underway jointly with the Department of Defense and 
Department of Energy. The improvised explosive device data base 
is being put together this year, and the advanced render safe 
capabilities that we are doing jointly with the Department of 
Defense and DOE are well underway, including foreign 
participation from the United Kingdom.
    We, in fact, should point out, in the statement I have 
given you for the record there is a table that displays some of 
the specific projects we work on. And for those who serve on 
the Armed Service Committee or others like them, I should point 
out that the letter after the number is ``k,'' not ``m.'' It is 
a way of making a point to you.
    Law enforcement and the Justice Department have not had a 
history of sustained R&D programs. We have tended, to support 
our casework, to buy off the shelf when we can to support 
current needs. So these relationships with the Department of 
Defense and the Department of Energy are particularly valuable 
to us because they are, in fact, in a mode of sustaining R&D 
programs over a number of years. They have stability in their 
technical staffing to provide it, and they don't have to go out 
and do casework everyday as we do, which takes people away from 
the R&D projects.
    To further support our relationships with the other 
agencies, one of my Deputies is presently seconded to the 
Defense Threat Reduction Agency and heads the Advanced System 
Concepts Office there, providing us real glue in terms of joint 
planning and thinking about some of the BW and CW problems.
    One of my unit chiefs is stationed at the Lawrence 
Livermore National Laboratory to tie very closely into the work 
they do in dealing with weapons of mass destruction detection, 
planning, and other things that Dr. Stoutland briefed you on. 
We have four or five people exchanged with counterparts in the 
intelligence community, not for liaison, but, in fact, to fill 
real responsible operating jobs. It is a way of cross-
pollinating the tools and techniques that we have.
    Last, we think while the funding for it is small, the 
Technical Support Working Group plays a very significant role 
in bringing the agencies to the table to talk about their joint 
requirements. It is led, of course, at the executive level by 
State, Defense, Energy, and now the FBI. But it reaches across 
the entire law enforcement and national security communities, 
and it has been an excellent place to fund projects that deal, 
for example, with explosives detection, some of the biological 
detection programs. And I think it is a good model for 
Government cooperation.
    We are going to continue to expand these relationships with 
the other agencies, but the most important thing is that we 
exercise them almost every month. One of the ways we have had 
to exercise them is that anthrax threat letters have become, of 
course, a favorite thing for some people. They come to the 
Congress, they come to the hospitals, they are everywhere 
around the country.
    We couldn't put people in the position of saying we are 
going to fly out and pick it up and in 48 hours we will tell 
you whether you were exposed to a pathogen. That is not 
satisfactory for the public that we protect. So with the help 
of the Centers for Disease Control and the public health 
laboratories across the country, there is now a network in 
place.
    So if we get a call from Cincinnati about a threat letter, 
we can advise them, first of all, how to package it 
successfully for their own safety and those around them, and 
who to take it to so that they can get an answer in a few hours 
rather than wait for the time it takes to transport it back 
here to Washington and analyze it. So it is a notable success. 
I think it is the kind of thing that clearly we benefit from, 
and hence want to encourage. Congressional interest helps a 
great deal in that area as well.
    Last, with respect to the State and local first responders, 
I mentioned the HDS school. We also in the past year have been 
buying and equipping State and local responders with sort of 
first-level capability, and that has, I think, been a good 
program. It has not put the most sophisticated equipment in 
their hands, and there is a reason for that.
    One of the things that we have to do is not take the best 
laboratory equipment to the field; we have to worry about shelf 
life, maintenance, calibration. We don't want to inflict an 
added overhead burden on the first responders if we can design 
around it.
    Mr. Chairman, I will be happy to answer your questions.
    [The prepared statement of Mr. Kerr follows:]

    [GRAPHIC] [TIFF OMITTED] T7312.039
    
    [GRAPHIC] [TIFF OMITTED] T7312.040
    
    [GRAPHIC] [TIFF OMITTED] T7312.041
    
    [GRAPHIC] [TIFF OMITTED] T7312.042
    
    [GRAPHIC] [TIFF OMITTED] T7312.043
    
    [GRAPHIC] [TIFF OMITTED] T7312.044
    
    [GRAPHIC] [TIFF OMITTED] T7312.045
    
    [GRAPHIC] [TIFF OMITTED] T7312.046
    
    [GRAPHIC] [TIFF OMITTED] T7312.047
    
    [GRAPHIC] [TIFF OMITTED] T7312.048
    
    [GRAPHIC] [TIFF OMITTED] T7312.049
    
    Mr. Shays. Thank you very much.
    Mr. Burnham, my understanding is you are going to be coming 
up to Connecticut.
    Mr. Burnham. Sir, I will be coming up on Friday for the 
tabletop, as well as on Monday for the hearing.
    Mr. Shays. It will be great to have you there. Why don't 
you give us your testimony and we will try to get your 
testimony done before I go and vote.
    Mr. Burnham. OK, I think we can get it done, Mr. Chairman.
    Again, Mr. Chairman and members of the committee, it is a 
pleasure to be here. I will be brief because, in the first 
place, I am a last-minute replacement here. Mr. Watson, my 
boss, the Assistant Director of the Counterterrorism Division, 
was unable to make it. His written statement has been 
submitted.
    [The prepared statement of Mr. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T7312.050
    
    [GRAPHIC] [TIFF OMITTED] T7312.051
    
    [GRAPHIC] [TIFF OMITTED] T7312.052
    
    [GRAPHIC] [TIFF OMITTED] T7312.053
    
    [GRAPHIC] [TIFF OMITTED] T7312.054
    
    [GRAPHIC] [TIFF OMITTED] T7312.055
    
    [GRAPHIC] [TIFF OMITTED] T7312.056
    
    [GRAPHIC] [TIFF OMITTED] T7312.057
    
    [GRAPHIC] [TIFF OMITTED] T7312.058
    
    [GRAPHIC] [TIFF OMITTED] T7312.059
    
    Mr. Burnham. I do work for Mr. Watson. I have got one of 
the section; I have got the Domestic Terrorism Section, which 
is part of the Counterterrorism Division. And most of what is 
in Mr. Watson's statement are areas that are under my 
responsibility.
    Mr. Shays. So feel free to talk about them.
    Mr. Burnham. OK, so I am going to talk about a couple of 
things. Again, he regrets he couldn't be here.
    I guess the overriding theme here is probably defining a 
threat and risk, and I am going to touch upon a couple of 
things on that, particularly because it was brought up in the 
first panel here.
    Mention was made of the FBI's--and this is also material 
that is in Mr. Watson's statement--mention was made by the 
first panel of a threat and risk assessment that is being done 
by the FBI. Specifically, that is being done now and it is 
being done as part of the Defense Against Weapons of Mass 
Destruction Act of 1998. In that, the FBI was tasked with doing 
a threat and risk assessment for chem-bio or radiological, 
whatever the threat may be in the WMD area.
    After we started that, pursuant to the fiscal year 1999 
State Domestic Preparedness Equipment Support Program, which is 
administered by OJP, that was rolled then into an overall grant 
package which is being administered by OJP. We finished the 
actual threat and risk package, gave that OJP, worked with to 
OJP. And by the way, the actual threat package itself, the 
threat and risk package, was also piloted in two cities.
    After completing that, we did give that to OJP. OJP has 
since rolled that into their entire grant package. And starting 
on March 28, next week, there are five particular locations, 
and I don't have the locations now, where they are actually 
going to start--five localities around the country where they 
will actually start to demonstrate that and get that working.
    Now, there are some limitations in that threat and risk 
package that we did with the locals, in that it was not your 
typical FBI crime survey; it was not like a lot of intelligence 
estimates we did. There were inherent limitations on that 
because of the fact that it was going to be going out to 
individuals who may not be in law enforcement or the 
intelligence community. So it did have certain limitations on 
it and I can discuss that more later.
    The other area that was mentioned by the first panel was 
the General Accounting Office last fall did a study in which 
they pointed out, and Mr. Spencer has also pointed out, that 
there are intelligence estimates done for State actors and 
possible overseas development in the area of WMD or chem-bio. 
What GAO's assessment or study pointed out was there is nothing 
really that is done domestically as far as what is out there in 
the area of chem-bio.
    One of the tasks that they did recommend, although we 
haven't been tasked with it yet, was that there should be a 
study or a threat and risk assessment done domestically as to 
what is specifically out there. The GAO report did note that 
over the last several years a lot of money has been spent in 
the area of R&D, and a lot of money in first responder 
training. But what were they training for? Are they training 
for any particular element? And that hasn't been done and we 
haven't been tasked with it yet, although on a daily basis we 
are dealing with what I would say would be the domestic threat.
    Now, we rely heavily, as Mr. Kerr has stated, on the 
laboratory. I have got an operational section, most of whom are 
not scientists, most of whom don't have the technical 
expertise. So we do have to rely heavily on our laboratory. And 
if I can give you just an example of how we work not only with 
our Laboratory Division but with our Federal partners, the 
Department of Energy, the Department of Defense, CDC, typically 
what we would do on our threat assessment process--and Dr. Kerr 
had mentioned the fact of an anthrax threat. We could get an 
anthrax threat in from one of our field offices. Our weapons of 
mass destruction coordinator may call in and say a particular 
hospital or doctor's office had received an anthrax threat that 
day.
    Part of the threat assessment process on what we do is we 
analyze the threat from three viewpoints. We analyze it from a 
behavioral, a technical, and an operational standpoint. What we 
will do is we will contact first our National Center for the 
Analysis of Violent Crime, our behavioral science people, and 
get them involved. This is all on a conference call. We will 
also get possibly HMRU and NBDC involved. We will also get the 
Centers for Disease Control in Atlanta and do a behavioral, a 
technical and an operational assessment for the local field 
office.
    In most instances, it is done for the first responder 
because for all intents and purposes, it is going to be the 
local police department or fire department that is going to 
receive the message. And if we have been doing our job over the 
last couple of years, they will contact us. We will do that, we 
will d a threat assessment, and we do this two to three times a 
week. So I think from all these threat assessments we are 
doing, get back to the field office.
    Dr. Kerr had mentioned we did just recently have a case out 
in California where we did exactly that. The call came in on 
Friday night, indicating possible biological agents. HMRU, the 
Hazardous Materials Response Unit, for Dr. Kerr, were 
dispatched out there. We worked with the Office of Emergency 
Management and the local public health officials out in 
California. That is typically how we respond. We have been 
doing it in the local community, and from these I think we have 
a sense of exactly what is out there now, at least 
domestically.
    I can go through figures and the actual number of cases 
that we have had in the last year. Predominantly, most of them 
have been anthrax and most of them have been hoaxes.
    Mr. Shays. Most or all?
    Mr. Burnham. I would say about 80 percent of our cases have 
been anthrax threats, hoaxes.
    Mr. Shays. Right, and of the 80 percent that are anthrax, 
have all of them been hoaxes?
    Mr. Burnham. Yes. We haven't actually--we have not had an 
actual case, right.
    Mr. Shays. I just didn't want to misread your statement.
    Mr. Burnham. No.
    Mr. Shays. Otherwise, you have got my attention.
    Mr. Burnham. No, no. I am sorry, no. Let me just spell out 
we have not had actual cases of anthrax.
    Mr. Shays. Yet.
    Mr. Burnham. But, again, that is part of the process and we 
are going through it on a daily basis, fully expecting that in 
the next couple of months the FBI, my section, will be tasked 
with doing an actual threat and risk assessment.
    Those are the highlights of Mr. Watson's statement. Again, 
I would entertain any questions that you may have.
    Mr. Shays. It is kind of embarrassing to have you gentlemen 
have to wait around. I apologize for that, but I only have one 
vote so I can vote and come right back and then we will do the 
questions. It is very important that we have this hearing, so I 
really appreciate you being here.
    So we will adjourn for a bit and I will be back.
    [Recess.]
    Mr. Shays. I would like to call this hearing to order.
    I have a number of questions I want to ask, but I think the 
first question is I just want to talk about what kinds of 
equipment we are talking about. I want each of you to describe 
one or two pieces of equipment that you would be dealing with.
    Let's start with you, Mr. Spencer.
    Mr. Spencer. OK, I will lead off. Of course, DOD is 
concentrating on warfighting, and our No. 1----
    Mr. Shays. Concentrating on?
    Mr. Spencer. On warfighting requirements, meaning 
warfighting needs for the commanders-in-chief.
    Our No. 1 priority is in the area of detection, 
identification and early warning. So when we talk detection, we 
are talking a detection capability that provides us early 
warning. We need to be able to detect and identify chemical 
agents, toxic industrial materials, biological agents, prior to 
them having an impact on exposed personnel so that exposed 
personnel can then take adequate individual protective 
measures.
    And that leads us into the next area, which is individual 
protection--clothes, boots, gloves, masks. The detectors 
themselves range from everything from airborne platform 
systems, which are basically lidar technology in nature that 
can send out a beam and scan the horizon to determine if there 
is a cloud that is not naturally occurring in nature.
    We have biological detention devices, something like our 
portal shield device that is deployed in southwest Asia and the 
Korean peninsula. Those are point biological detection devices 
that are for fixed sites that, should they be exposed to a 
biological aerosol, they will alarm, they will provide an early 
detection capability.
    In collective protection, collective protection is 
required--and most of us speak the same language when it comes 
to equipment. For example, a mash unit, emergency medical 
procedures. You do not want surgeons wearing protective masks, 
suits and gloves. They need to be in a clean environment, so 
you have a filtered environmental system that is self-contained 
so that surgeons can perform those types of operations. And 
that is also a valuable tool for command and control 
facilities, maintenance facilities, anywhere you have long-
duration facilities. A good example also is the Army. All of 
their Abrahms armored systems have collective protection. We 
have collective protection on citadels, on ships. Some aircraft 
have collective protection as well.
    Mr. Shays. Thank you.
    Mr. Spencer. The last thing was decontamination, and 
obviously those are chemical substances that will decontaminate 
all known chemical and biological agents.
    Mr. Shays. So you basically mentioned three: the detection 
and identification, the protective gear, and the 
decontamination.
    Mr. Spencer. Correct, and collective protection.
    Mr. Shays. And what?
    Mr. Spencer. Collective protection, which are the shelters 
for the mash units, for example.
    Mr. Shays. OK, so individual protection gear and collective 
protection gear?
    Mr. Spencer. Correct.
    Mr. Shays. And I am going to come back to you because of 
the emphasis on the military. I would love to know what the 
implications are for civilians of what you do.
    Mr. Spencer. Certainly.
    Mr. Shays. Dr. Stoutland.
    Mr. Stoutland. Let me give you two specific examples, one 
being equipment and the other being a capability. With respect 
to equipment, one of our detector projects is one that we call 
micro chem lab CB, short for chem-bio. This will be a handheld 
unit able to detect many chemical agents, as well as biological 
toxins, including industrial chemicals as well.
    Mr. Shays. Will it be a sophisticated, calibrated piece of 
equipment or is it going to be--we had the problem when we did 
the gulf war illnesses where we had the military people in the 
field hearing alarms going off all the time, and then finally 
they just discounted it because they were being told to 
discount it. And then the more sensitive equipment would come 
in and discount most of the readings.
    So my point, I guess, is that in the end the handheld 
stuff, the stuff on the trucks, the jeeps, and so on, were 
almost useless because if they detected something, we ignored 
it.
    Mr. Stoutland. Our goal is to overcome those shortfalls by 
using a variety of techniques. I can go into them if you want. 
Basically, what we are doing is we are putting the power of an 
analytical laboratory, for example, a gas chromatograph which 
is the size of a microwave oven, into a chip format. So we are 
moving things literally to micro chips. So something that used 
to be a meter in length can now be put into a 1-centimeter-
squared chip. So you can then put the power on to a chip and 
you can do things in redundant fashion so that you can 
eliminate the false alarm problem.
    Our goal for this particular device is one false alarm in 
every 10,000 measurements. Obviously, it is an R&D program. 
This year, we have the first prototype that will be tested this 
summer with live agents to see how close we are to that 
performance goal.
    Mr. Shays. You wouldn't ignore an alarm like that then, 
would you?
    Mr. Stoutland. That is the hope. And, again, getting back 
to the domestic use, what we hear from the first response 
personnel and others is that false alarms really are not 
tolerated domestically. In the military, of course, you have 
got some flexibility. You can bring in other units, you can don 
masks while you are trying to figure out whether the alarm was 
real or not.
    Mr. Shays. So are you mostly focused on civilian use 
protection?
    Mr. Stoutland. Yes. Well, I will give you two examples. Our 
program targets civilian use. The first example is detection. 
The second example is a computer modeling capability. For 
example, we have developed extensively models to be able to 
predict the flow or the transport of chemical or biological 
agents within buildings and within subway structures.
    So, for example, it lets us predict what the impact would 
be of a release at a given subway station, how far away will it 
travel, how quickly will it get there, which then aids in 
determining what sorts of mitigative measures you might think 
of.
    Mr. Shays. So you are doing detection and identification. 
You are not doing protective gear.
    Mr. Stoutland. That is correct.
    Mr. Shays. You are not doing collective protection.
    Mr. Stoutland. That is correct.
    Mr. Shays. And decontamination?
    Mr. Stoutland. We do have a decontamination effort.
    Mr. Shays. So you are doing both of those, OK.
    Mr. Spencer. May I comment on that, please?
    Mr. Shays. Sure.
    Mr. Spencer. Dr. Stoutland used an excellent example of 
micro chem lab. That is a technology that we are following 
very, very closely. In fact, we have contributed a significant 
amount of money and are working collaboratively with the 
Department of Energy because we at the Department of Defense 
see that as very promising technology for warfighting 
application as well.
    In the area of modeling and simulation, although we are not 
first responders, we realize the Department of Defense will be 
called upon in the event of a national emergency involving 
chem-bio terrorism to provide assistance to State and local 
authorities. In that role, we are looking at modeling and 
simulation as well to ensure that the work the Department of 
Energy is doing in the domestic arena aligns with the work that 
we are doing, as well as we provide support. And we are working 
together on modeling and simulation as well.
    Mr. Shays. Dr. Kerr.
    Mr. Kerr. First of all, I think it is important to 
recognize there are three things that the FBI has to be 
concerned with in its management of a crisis. The first 
responsibility is public safety, which leads to the issue of 
where is the same perimeter, do you evacuate, do you not 
evacuate, and can you get information quickly to inform those 
who might take prophylactic action.
    The second thing that we are concerned with is the safety 
of our own investigators as they move into this crime scene or 
incident scene. So personal protective equipment is, in fact, a 
very important component of what we need for our people.
    And the third thing, of course, is once on the scene we are 
concerned with attribution; that is, the forensics of the 
situation, and so more sophisticated and specific 
identification capabilities that might lead you back to the 
perpetrator.
    That being said, we live on the results of the programs in 
the Department of Defense and the Department of Energy and what 
we can buy off the shelf. We are not, in fact, ourselves 
developing new techniques or new equipment. So it is very 
important for us that there is, in fact, this set of 
developments in the other agencies that we can work with.
    Mr. Shays. Mr. Burnham.
    Mr. Burnham. Yes, to follow one step further on what Dr. 
Kerr----
    Mr. Shays. I am sorry. So you are not into detection and 
you are not into decontamination and you are not--of the three 
outlined by Mr. Spencer----
    Mr. Kerr. We are very much into detection and 
identification, but the kits that we are now using in the field 
were developed, for example, by the Naval Medical Research 
Institute, in Bethesda.
    Mr. Shays. Are you DOD's customer?
    Mr. Kerr. What happens is that DOD will in many cases 
develop a capability and we will go to the same vendor either 
as part of their procurement or as a separate procurement. 
There may be a little bit of specialization for us, but in 
general we try to use the same capability.
    Mr. Shays. Thank you.
    Mr. Burnham. To carry one step further what Dr. Kerr was 
talking about as far as on the crime scene what they came 
across, what the element is, I think the most important thing 
that we can do, the FBI, through our WMD coordinators, is 
impart that information to State and local responders. I can 
give you several examples.
    In the last year, we had dispersions of some type of 
chemical in a number of movie theaters throughout the Midwest. 
Once we saw a pattern where there were three or four of them, 
we deemed it to be important enough to get out Bureau-wide 
through all of our field offices--to get that information out 
to the local responders. As it turned out, it was more of a 
labor relations matter, but I think it is important.
    We see this in nationwide cases. Be they anthrax threats, 
or other patterns, I think it is important that we get that 
information out, and we are. From that I think the local 
responders as well as the FBI can then gauge what kind of 
equipment they need. Again, we would have to rely on Dr. Kerr 
and HMRU, but I think the important thing is to get the 
information out, which I believe we have successfully through 
our WMD coordinators, as well as through the National Domestic 
Preparedness Office [NDPO].
    Mr. Shays. I am just deciding which level to go. This is a 
digression, but I do want to ask now, Dr. Stoutland, I don't 
know if you made reference the Europeans or if it was you, Dr. 
Kerr.
    Mr. Kerr. I did, yes.
    Mr. Shays. Is Great Britain ahead of us, is France ahead of 
us? I will tell you why I ask this question. When we went to 
view how they respond to the whole issue of dealing with gulf 
war illnesses and protective gear, and so on, I had a sense 
that the Brits and the French believe this kind of attack is 
likely to happen, and I think they are more sensitive to it 
than I think our general population is. I mean, that is just my 
own view.
    I am just curious. Are they ahead of us, behind us, 
parallel to us?
    Mr. Spencer. Dr. Kerr, can I address that? I think Dr. 
Stoutland and I can probably do a better job of addressing that 
question.
    I have a requirement for the Department of Defense to 
monitor all the chem-bio science and technology development 
programs internationally as well. As part of that 
responsibility, we have over 50 data exchange agreements in 
science and technology for chem-bio defense throughout the 
world. We also have a number of cooperative R&D programs, and 
we watch very, very closely and work very, very closely 
especially with the Brits and especially with the French, and 
the Canadians as well, as part of a memorandum of understanding 
that is a formal agreement between us.
    I can give you my professional and my personal opinion on 
the status of their R&D programs. Generally speaking, the rest 
of the world is following the U.S. lead. They are looking at 
where we are going, they are looking at the technologies that 
we are developing in the basic sciences as well as in the 
advanced sciences.
    In the area of biological detection, identification and 
early warning, and addressing the entire biological threat, I 
personally feel we are 3 to 5 years ahead of them. In the 
chemical technology arenas and chemical protection arenas, they 
are pretty close in some areas.
    Mr. Shays. Well, in some ways they are ahead of us. I mean, 
the fact is our masks don't work as well as some of theirs. The 
fact is they have protective gear that is two-ply, and it 
doesn't have charcoal and can be worn as a general uniform. I 
am speaking of the French.
    Mr. Spencer. Correct. They are very, very proud of their 
technology developments. They have been very generous and have 
provided us much of their newly developed equipment and the 
equipment that they currently have in advanced development. We 
have performed similar tests as well.
    Mr. Shays. Dr. Stoutland.
    Mr. Stoutland. I have been personally both to the UK and to 
France over the last year to look at the exact issue that you 
have addressed. With respect to R&D in particular, I would not 
disagree with Carmen. I think there are some things that the 
British in particular do very well, and we are in the midst of 
signing a memorandum of understanding with them so that we can 
more closely share information and proceed jointly.
    With respect to public awareness, my observation has been 
that they are a bit behind us, in fact.
    Mr. Shays. On what?
    Mr. Stoutland. With respect to public awareness and concern 
over the threat, my personal observation has been that we are a 
couple of years ahead of them, if you will. For example, in 
France there is a new commission called the Haute Commission 
Francais de la Defense Civile, which is sort of the high French 
commission for civil defense, and they have just now stood up 
and are really starting to move forward. So I think they are a 
couple of years behind in terms of awareness of the threat, but 
they certainly have some capabilities that we are aware of and 
we will be making use of.
    Mr. Shays. But when you go through Paris and you see their 
police carrying assault weapons, it is not like they are going 
after the common criminal.
    Mr. Stoutland. Well, I will defer to the FBI for sort of 
broad terrorist awareness. But with respect to chemical and 
biological threats in particular, my observation has been that 
on a national level they are now taking it much more seriously 
than they did 2 or 3 years ago.
    Mr. Kerr. Let me speak briefly to the question you 
initially asked, which is areas----
    Mr. Shays. And candidly.
    Mr. Kerr. Yes, right. With respect to the United Kingdom, 
we work very closely with them in bombing matters because they 
have more experience with terrorist bombings than anyone that 
we know of. We send U.S. bomb techs to their schools. We adopt 
some of their equipment and adapt it to our use. Similarly, in 
some of the detection areas they have had activity that for us 
has been quite useful.
    The partners that work most closely, of course, are the UK, 
Canada, Australia, and the United States. And there are, in 
fact, working agreements----
    Mr. Shays. Say that again. You left out France?
    Mr. Kerr. Correct. France is not part of what I will call 
the inner close working group. Maybe it is an Anglo-Saxon bias, 
maybe it is a harmonization of the legal systems, but there is, 
by tradition and past agreements, more of an open interchange 
there than with the French.
    Mr. Shays. When I was in France talking with personnel who 
deal with both chemical and biological and the nuclear threat, 
one of their warnings to us was that we can win the traditional 
war, but then be exposed to the terrorist threat out of 
frustration by our success militarily and just getting us to 
have a perception that it only takes a few people.
    And so I just found it interesting how sensitive they were 
to the reality that there will be a nuclear, biological, or 
chemical attack on some Western country sometime. I am also 
struck by the fact that when I went to a base in Mississippi, I 
saw the finest firefighting equipment for our planes, and I saw 
a crew of just outstanding firemen at this airport. And I 
thought they may never, ever have to use their equipment, but 
they prepare everyday as if they do.
    I was thinking as you were talking that if there were such 
an attack, you all would be right up there on the firing line 
and then there would be people writing articles about who are 
these people and what have they been doing for the last so many 
years.
    I want a handle on what we are spending in this area. I 
mean, this isn't classified information, so give me a sense of 
what we are devoting in each of your units.
    Mr. Spencer. What I will share with you is the fiscal year 
2001 President's budget submission for the Department of 
Defense in this area.
    Mr. Shays. OK.
    Mr. Spencer. For the joint NBC defense program, which is 
the program that I manage, in the area of very basic research--
this is laboratory-level research for chem-bio--about $33.2 
million for fiscal year 2001; in the area of applied research, 
$73.6 million; for advanced development programs, $46.6 
million; for what we call demonstration validation of the 
technologies, $83.8 million; for engineering management 
development, which is actually putting the technologies into 
the widgets and doing the final operational and developmental 
testing, $100.8 million; and for overall management of the 
program, publication of doctrine, training requirements and the 
training base for chem-bio defense, about $23.9 million, for a 
total of $361.9 million for research and development.
    But probably more importantly, we are going to be spending 
$473.9 million to physically procure new equipment and putting 
it into the hands of the warfighters in all of those areas I 
discussed--detection, identification, early warning.
    Mr. Shays. In next year's budget or this year's budget?
    Mr. Spencer. I am sorry. This is for fiscal year 2001.
    Mr. Shays. 2001, OK.
    Mr. Spencer. This is the President's budget, and that total 
is $835.8 million.
    Mr. Shays. So a little more than half is for procurement?
    Mr. Spencer. Correct.
    Mr. Shays. And is any of that procurement for non-defense 
personnel or is it all for defense?
    Mr. Spencer. It is all for defense, but it does include, 
for example, procurement for our civil support teams, formerly 
known as raid teams, for the domestic mission.
    Mr. Shays. These are the National Guard units?
    Mr. Spencer. Correct.
    Mr. Shays. Yes.
    Mr. Spencer. It also includes some procurement for some of 
our specialty units like the Marine Corps CBIRF units, Chemical 
and Biological Incident Response Force. It includes procurement 
for the Army's technical escort unit which has worldwide 
deployment capability in the area of chem-bio defense, and also 
for USAMRIID, the U.S. Army Medical Research Institute for 
Infectious Diseases, which responds around the world to 
biological incidents as well.
    Mr. Shays. Dr. Stoutland, can you talk about your budget at 
all?
    Mr. Stoutland. Our budget request for the area that I 
described, that being R&D and the demonstration programs, is 
$42 million in fiscal year 2001.
    Mr. Shays. And that is the extent of your budget?
    Mr. Stoutland. Right.
    Mr. Shays. Dr. Kerr, you have a little more amorphous area 
of activity.
    Mr. Kerr. It is more amorphous, but it also pales in 
comparison to the numbers that you just heard. The identified 
increment for counterterrorism R&D is about $5 million in the 
Bureau. That is not the extent of all that we put into the 
capabilities that we field because we use some of our base 
funding that is accounted for quite differently.
    But, you know, one way to think about the FBI is that about 
65 percent of our budget pays for agent and support personnel. 
The consumables go for the rest, and so we are not an R&D 
organization and it is an apples and oranges comparison here.
    Mr. Burnham. Sir, I can get you the budget for the 
Counterterrorism Division. As Dr. Kerr indicated, some of that 
bleeds over from the laboratory. I am going through the process 
now for the 2002 budget and the cross-cutting. To give you an 
example, in the Counterterrorism Division I have had to meet 
with the Investigative Support Division, which is intelligence; 
with our Critical Incident Review Group, which is CIRG; with 
the laboratory, all of which would go into our counterterrorism 
efforts. But we do have that broken out. We are going through 
that now and I can get you 2001 budget and it is broken out by 
different divisions that contribute to the counterterrorism 
effort.
    Mr. Shays. We don't have the Technical Support Working 
Group here today, a representative from it. How do you all 
interface with that Group?
    Mr. Spencer. The Department of Defense interfaces with 
them. They have a chemical and biological, radiological and 
nuclear countermeasures subgroup. We are a member of that 
subgroup and work in this arena with them. That includes the 
Department of Energy, the FBI, the Department of State, the 
Department of Agriculture, EPA, Customs, the Postal Service, 
FDA, the Centers for Disease Control, and FEMA.
    Mr. Shays. Agriculture because of----
    Mr. Spencer. Domestic biological terrorism.
    Mr. Shays. Right, OK.
    Mr. Stoutland. That is basically true for us as well. We 
have a representative. In fact, DOE is one of the co-chairs of 
the TSWG, at the working level we have representatives on the 
appropriate subgroups, including the chemical and biological, 
radiological subgroup.
    Mr. Shays. Dr. Kerr.
    Mr. Kerr. The FBI is also one of the four executive members 
of TSWG, and then our people have served as co-chairs of things 
like the chemical and biological, radiological subgroup.
    Mr. Burnham. From the Counterterrorism Division, our 
representative is the laboratory, Dr. Kerr.
    Mr. Shays. How is the nature of the threat, which gets me 
to your point--you focused primarily on defense. I am not clear 
yet, and maybe we don't have a panelist here that--maybe I 
don't have a complete panel to answer this question, but I want 
to know the difference between the civilian customer and the 
military customer.
    Mr. Spencer. My customer is obviously the military 
customer, and my threat is basically a compilation from the 
intelligence community. The intelligence community--DIA, CIA, 
NSA--postulate a threat. That threat then receives what we call 
a validated--becomes a validated threat list after review by 
the Joint Chiefs of Staff.
    That validated threat list is a prioritized threat list, 
and that is the master threat-based list that we use to develop 
our research and development programs to counter. And that is 
both for chemical threats as well as for biological threats.
    Mr. Shays. I guess what I am asking then would be, before I 
go on, the need of your customer, the military, is on the 
battlefield.
    Mr. Spencer. Correct.
    Mr. Shays. It is not in the basement of the World Trade 
Center.
    Mr. Spencer. That is correct. The Department of Defense 
does have some units that we know will be responding to a 
domestic emergency in the chemical and biological arena, if 
requested. We also look to provide them the capability to 
provide that desired response. Those are the units like the 
TEU, the Technical Escort Unit, the CBIRF, the USAMRIID, and we 
look for specialized equipment to enable them to do that. The 
basic threat, though, domestically, as well as for worldwide, 
although not regionally focused, is primarily the same.
    Mr. Shays. I am not sure I agree with that. I mean, it is 
the same because?
    Mr. Spencer. The same types of toxic chemical substances 
and biological pathogens.
    Mr. Shays. Right, OK. I just see them being delivered in 
different forms and I see them----
    Mr. Spencer. Absolutely.
    Mr. Shays. I would think the exposure would be greater on 
the military. I have no way of knowing, but it would strike me 
that way.
    Dr. Stoutland.
    Mr. Stoutland. First of all, there are many obvious 
similarities, but I think there are some important differences 
and I will just describe those.
    Mr. Shays. First off, who is your customer?
    Mr. Stoutland. We perceive our customers to be the broad 
domestic preparedness community who would be involved in 
protecting a city, and within that it would include some 
Federal agencies. For example, we consider the FBI to be a 
customer, but also local entities, and that changes depending 
on what the city looks like.
    For example, in the city of Washington it would involve a 
mixture of people who own facilities that need to be prepared; 
for example, subway systems. It would involve first responders, 
be they firemen in some cities or policemen in other cities. So 
it is a mix, but broadly it is those type of people who would 
either be involved in preparing for, meaning continually 
monitoring because they have a building or a facility they 
consider to be at risk, or people who would rush to the scene 
should there be an incident.
    Mr. Shays. Well, before you go on, given that, you said 
your budget was basically 42?
    Mr. Stoutland. That is correct.
    Mr. Shays. But that is basically research and development?
    Mr. Stoutland. That is correct.
    Mr. Shays. OK. Someone else is procuring from you? This 
isn't procurement. You didn't give me any figure on 
procurement.
    Mr. Stoutland. Our budget does not have procurement.
    Mr. Shays. So is that kind of like with the anti-missile 
defense system? I mean, we are still in research and 
development, not into procurement?
    Mr. Stoutland. No. I think there are two issues here. There 
certainly is procurement going on, and within cities it goes on 
in a number of different ways. It goes on in local budgets, be 
they local fire departments having money to procure items.
    Mr. Shays. But they are not buying from you?
    Mr. Stoutland. They are not buying from us, no. Our model 
is to first of all do development until it gets to a stage 
where we think it is ready for use, and then to move these 
things into what we call the demonstration phase. So, for 
example, our demonstration program that I highlighted which 
looks at subways will put in place chemical detectors, computer 
models, and so on. Some of those things will be from our 
program, some of them will be whatever is required to fill out 
the entire system.
    Mr. Shays. But we haven't yet perfected those models, have 
we?
    Mr. Stoutland. Sorry?
    Mr. Shays. Have we perfected the equipment that you are 
researching yet? Are we in a stage to develop them?
    Mr. Stoutland. There are things in different stages. Let me 
give you two examples. Some things will never be fielded 
operationally with a first responder. For example, computer 
models will be run that will then result in guidance that they 
will use on a day-to-day basis. Those things are ready.
    In other cases we have built, for example, a handheld 
biological detector where we have built several units, and this 
year we will be giving those to responders and various people 
around the country as a beta test. If that beta test pans out 
and people perceive this to be a valuable piece of equipment, 
then it will be transferred to the commercial sector and they 
will produce them. DOE is not in the business of producing many 
copies.
    Mr. Shays. I am getting the sense, before I go to the FBI, 
that we are at a stage where DOD has developed some equipment 
and is starting to procure, obviously. So it is still going to 
be in the hands of DOD. You are in the process of researching 
and testing and getting out in the field some test.
    But it leads me to believe that right now the only groups 
that would really have this equipment at any level would be 
responders from the Federal Government, not necessarily from 
the local and State. That is kind of the sense I am getting.
    Mr. Stoutland. That is not entirely true. The examples I 
gave you, both the subway, where we are working not with the 
Federal Government but with transit agencies, which I would 
consider to be local people--our capabilities are getting into 
their hands, first, in the form of improving their preparedness 
plans. The second example, the handheld bio detector, will 
involve some Federal people, but the majority of people 
receiving that will be State or primarily local responders.
    Mr. Shays. But it is ``will be.''
    Mr. Stoutland. Excuse me?
    Mr. Shays. It is a ``will be,'' it is not ``already have.''
    Mr. Stoutland. That is correct. The bio detector, in 
particular, will be----
    Mr. Shays. That is my point. Right now, I feel like we are 
kind of vulnerable, that we have not yet reached the point 
where we are out there yet.
    Dr. Kerr, is that accurate? Particularly with a $5 million 
budget, that is pretty pathetic.
    Mr. Kerr. Well, our model is a little different. As you 
know, we have 56 field offices around the country, and so the 
first thing we have been doing as we have gained new equipment 
and capability is push it into our field offices because that 
way it gets tested on the street.
    Mr. Shays. Yes, but you don't have that equipment yet.
    Mr. Kerr. Oh, yes, we have first-generation equipment. We 
have, in fact, trained up full HAZMAT teams at the 15 largest 
field offices. They have a first-generation biological 
detection capability that is what the Navy had developed some 
years ago. They have radiation detectors of two different types 
and they have personal protective gear.
    In turn, those people then are training their counterparts 
in the State and local agencies, and for them we have been 
procuring personal protective gear, a simpler form of radiation 
detection. We do not yet have a biological detection capability 
to share with them.
    Mr. Shays. Yes, and I would just emphasize it is first 
generation.
    Mr. Kerr. Correct.
    Mr. Shays. And you all are working on what generation?
    Mr. Spencer. We are in the process of fielding an improved 
first-generation bio detector now, and we will be fielding in 
about 2 years our next generation.
    Mr. Stoutland. Our program, I would say, is a combination 
of first and second generation. We are seeing some of the 
first-generation things now coming out. We have given a number 
of things to response personnel, first responders rules of 
thumb for what they should do based on extensive calculations, 
and so on. But really the bulk of our program is going to be 
delivering things in the next couple of years. The program is 3 
years old. We have set our program targets for programs or 
projects that are 3 to 5 years out that will make major 
capability enhancements, and so things are now just beginning 
to get out of the R&D pipeline.
    Mr. Shays. So let me ask you and Dr. Kerr again, because I 
didn't really pursue it enough, how is the nature of the threat 
different to the civilian versus the military?
    Mr. Stoutland. I would divide it into three areas and maybe 
give a couple of specific examples. One is ``what?'' I mean, I 
think the list of agents--particularly in the chemical area, 
one can imagine a much broader set of agents that could have 
very dramatic effects in confined urban spaces. Obviously 
included in those would be industrial chemicals, and so the 
detection capabilities, for example, need to not only do the 
conventional CW threat agents, but a broader set of agents.
    The other point would be where things are going to be used. 
If they are going to be used in confined urban areas, be they 
inside of buildings or inside of subways, that requires a 
different set of capabilities both in terms of detection, 
because false alarms is a problem inside of buildings with 
outgasing of materials, and so on, as well as with the various 
modeling calculations that would help you to characterize the 
threat.
    And, finally, the differences with who is going to use the 
capability. First responders and others have very different 
training in many cases than those in the military, and we must 
develop equipment that is suitable for their level of training 
and expertise.
    Mr. Shays. So one of your points would be that the 
civilians will not have the same capability of training?
    Mr. Stoutland. No, no. It could be better. My only point is 
that it is different.
    Mr. Shays. OK, fair enough.
    Mr. Kerr. Having participated in the Defense Science Board 
for a number of years before I came back to Government, I was 
involved with many studies of urban warfare and what the 
military has called operations other than war. And I would 
argue that their thinking about the role of chemical and 
biological threats in that environment is virtually identical 
to the civilian issue that you are asking about.
    The difference in detail is that they are thinking about it 
in terms of a conflict situation. In law enforcement, we have 
to think about it in terms of it being embedded within the 
larger civilian population whose safety we have to assure 
first. So there is some difference in the amount of equipment 
you would need for, if you will, the first crude detection in 
order to set up a perimeter for safe access. But the specific 
threats, the so-called threat list, whether it be biological or 
chemical, is virtually the same, augmented in the chemical area 
by some of the industrial chemicals like chlorine. With respect 
to radiological dispersal, the ability to detect radioactive 
materials on the battlefield or in a city is no different. The 
same laws of physics apply.
    And the other thing I should point out is that we also have 
to deal with some of these things in conjunction with one 
another. We have had threats where we have responded which have 
been a combination of explosives and suspected biological 
material. We do have some 2,500 bombings a year in the United 
States, which is part of our backdrop in the counterterrorism 
program.
    So one way we look at this problem of high consequence and 
so far low probability event is that we ought to be 
incrementally adding capability, but we should not be 
withdrawing capability from the threats that we are facing 
everyday.
    Mr. Shays. Thank you very much.
    Let me ask this question, and we are getting to a close 
here. Who in the U.S. Government is in charge of ensuring the 
coordination of R&D efforts for the military and the civilian 
requirements?
    We will start again with you, Mr. Spencer.
    Mr. Spencer. Under the National Security Council----
    Mr. Shays. Let me just say the pregnant pause is very 
telling. It is, it is, and it is not a criticism of anyone; it 
is just telling.
    Mr. Spencer. If you are looking for one individual to be in 
charge to ensure that the Department of Defense, the Department 
of Energy, and the Department of Justice are all working toward 
the same common goal, and that common goal is domestic 
preparedness, I believe that would come under the National 
Security Council. And they have established seven working 
groups that are looking at all aspects of this particular 
issue. But, again, that is one body. They have visibility. They 
do not have decisionmaking authority, nor do they probably have 
the resources to do what is actually required.
    Mr. Shays. It sounds to me like you are just saying the 
President has the responsibility.
    Mr. Spencer. No. There is an individual that has been 
designated, and that is Mr. Dick Clark.
    Mr. Shays. Right, but does Mr. Clark have this 
responsibility?
    Mr. Spencer. Yes.
    Mr. Shays. Do you think he knows he has the responsibility?
    Mr. Spencer. Yes, I do. I think if you take a good external 
look at the programs, I think at the scientific level when you 
talk about the science and technology, the scientists working 
for the Department of Defense are working very closely with the 
scientists in the Department of Energy, and the FBI is a 
customer for both of us.
    As you work your way up in the bureaucracies, there are 
bureaucratic mechanisms that are in place that physically look 
and attempt to assure that the proper coordination is taking 
place. But the bottom line to really the whole effort is--and a 
good example of this and probably the best example occurred in 
the last 30 days.
    In the last 30 days, we had what we call a technical area 
review and assessment, where I had my principal scientists for 
every one of our programs brief a scientific panel of non-DOD, 
non-Government personnel. And the panel also had a 
representative from the Department of Energy on it, from 
academia, as well as from industry.
    The scientists briefed, are we going in the right 
direction? They briefed their program and they looked for 
opportunities to improve leveraging what is going on in 
academia and industry and internationally. Also presenting at 
that week-long effort was the TSWG. The Department of Energy 
briefed their programs, and at the scientific level that 
exchange is taking place and it is a very positive exchange. 
Redundancy in all cases is not bad, especially when you look at 
high-risk technologies, and there are high-risk technologies 
involved in biological defense.
    That is an excellent example, but if you look above that 
level within the Federal Government, I think there is probably 
a void.
    Mr. Shays. Probably what?
    Mr. Spencer. Probably a void.
    Mr. Shays. And that void again is where? I know you used 
the word ``probably.''
    Mr. Spencer. I am going to qualify my statement.
    Mr. Shays. Sure.
    Mr. Spencer. We have the Counterproliferation Review 
Committee with the senior executive levels of the Department of 
Energy and the Department of Defense that they participate on, 
and that coordination is working well.
    What is really lacking, and I think what you are really 
looking for is what we are all striving toward, and that is 
there is no national architecture. What is the national 
capability for domestic preparedness that is desired by this 
Nation for chemical and biological antiterrorism and 
counterterrorism activities? To what capability should the 
Department of Energy, under Presidential Decision Directives 39 
and 63, be developing a defensive capability for the United 
States? That national architecture does not exist.
    Mr. Shays. Fair enough. That is very helpful.
    Dr. Stoutland, do you want to respond in any way?
    Mr. Stoutland. I will agree, first of all, with what Mr. 
Spencer said and maybe add just a couple of things. My 
observation is that at the working level coordination is 
working very well. People are not duplicating projects. 
Scientists talk regularly, whether they be from Justice, 
Energy, or Defense-sponsored programs.
    What we are lacking, as was pointed out, is a high-level 
architecture for where we are going so that we know what the 
targets are, and that is exactly the purpose of the study that 
is now being jointly funded within my program and within the 
Defense Threat Reduction Agency, a study that call the Defense 
of Cities Study, to try to develop a framework so that we can 
compare in a rigorous analytical manner various high-level 
policy options to present to policymakers to then make 
decisions as to what our level of preparedness should be, which 
then feeds back into my R&D program and others so that we know 
where we are going.
    In addition to that, the Counterproliferation Review 
Committee group was mentioned. This year, at the urging of my 
Under Secretary Moniz and Under Secretary Gansler, of the 
Department of Defense, we formed a chemical and biological 
defense focus group. The purpose of this group is really to 
focus specifically on chemical and biological areas, with the 
goal over the next year of developing integrated R&D road maps 
in a number of areas where we both have programs going on with 
different missions, different technologies, but to look, in 
fact, at where there are intersection points where we can 
benefit to a greater extent from the other agency's programs.
    So I think that is a very positive step that has now been 
approved at the highest levels of Defense and Energy. And, of 
course, we will be vetting that with the NSC-led Weapons of 
Mass Destruction Preparedness Group, including the Office of 
Science and Technology Policy which chairs the R&D subgroup.
    Mr. Shays. Dr. Kerr or Mr. Burnham, either one of you?
    Mr. Kerr. I think I will take it and I will do it on a 
slightly different tack, not to disagree with those who 
preceded me, but there are a couple of people who have made a 
difference in this area. One is the present Deputy Secretary of 
Defense John Hamre. Another, working with him, has been the 
Attorney General, and they have had now two Saturdays this past 
month a major WMD exercise bringing Justice and Defense and 
other agencies together, thinking about not just technology and 
R&D, but thinking perhaps beyond that, how will it be used, 
what are the operational and policy implications of what is 
being discussed.
    They have been meeting regularly about every 6 weeks for 
the past year in order to try to harmonize the needs of the law 
enforcement community and the tremendous capabilities resident 
in the Department of Defense.
    Mr. Shays. Yes. I read that, though, differently. I read 
that as a very sensible thing to do because there is somewhat 
of a void.
    Mr. Kerr. Right, and what I was trying to do was point out 
that some individuals, by name, have tried to fill that void.
    Mr. Shays. I have got you, I have got you.
    Mr. Kerr. Yes, sir.
    Mr. Shays. Then let me ask you who should do it. That will 
probably be my last question, but the issue is who should be 
doing that? It is not going to be the Technical Support Working 
Group. It is not going to be that. Who should it be, in your 
judgment?
    Mr. Kerr. I think the voice that has been missing in the 
discussions that have gone on between the Department of Energy 
and the Department of Defense has been, in fact, the voice of 
those charged with the crisis management responsibility. We 
have to find a way to bring the Department of Justice into that 
discussion, recognizing that unlike the other two, it is not an 
acquisition agency, it is not an R&D agency. Yet it is, in 
fact, desperately dependent on what can be produced by those 
who do it so well. And we have to get that coupling not just at 
the working level, which is the TSWG, but at the policy level 
where people like the DOE and DOD Under Secretaries have an 
effective relationship today.
    Mr. Shays. Dr. Stoutland, who do you think it should be?
    Mr. Stoutland. I am sorry. Who should coordinate this?
    Mr. Shays. Yes.
    Mr. Stoutland. I think it needs to be led at the level that 
it is being led at, that is the President's coordinator for 
counterterrorism, Richard Clark.
    Mr. Shays. And let me just say I realize that Mr. Clark is 
working hard, but chooses to have a low profile. He is not 
looking to be called the terrorist czar, but it may make sense 
for our committee to ask him this same question and really get 
a sense of how he weighs in on this.
    This is a question that I would love answered ultimately, 
and it is too serious a question and too important a question 
not to feel certain about it. But I just think this is a very 
telling conversation, in a way, because you are all kind of 
wrestling with it, but nothing comes quickly to mind.
    Mr. Stoutland. Well, that is right, and what I won't do is 
suggest maybe a particular mechanism that would solve all of 
our problems because if we knew that, obviously we would be 
more than willing to put it forward.
    Mr. Shays. And I realize that you all work for bosses who 
may have a different opinion.
    Mr. Stoutland. I think what this is more telling of is the 
complexity of this problem. We have presently got a number of 
coordinating groups, some of which are quite effective. I think 
the Counterproliferation Review Committee is an effective 
group, but focused not on the domestic problem. I think the 
Weapons of Mass Destruction Preparedness R&D Subgroup is also 
an effective group which builds upon the CPRC.
    But I think ultimately the fundamental challenge and one 
that we have not grappled with as well as we could have is 
trying to figure out how to make the lash-up between those 
organizations with scientific and technical capabilities, 
represented to the most extent here by DOE and DOD, with those 
organizations with operational responsibility, which would 
include the FBI as well as State and local responders. That is 
hard thing to do. I think we are working toward it and we are 
making progress, but we are going to continue to struggle with 
that.
    Mr. Shays. This is a nice lead-in to what I will see on 
Friday and Monday when we have our hearing. We are going to be 
seeing how the fire departments and the police departments all 
interact in this effort to deal with a terrorist threat.
    What is helpful for me is to know that if I were on the 
outside looking in and saying, well, the Technical Support 
Working Group, there is someone in charge and they should be 
doing that, I think there is consensus that it is not that 
organization that I should be looking at. So this is something 
the committee will do, and I think we will have further dialog.
    I am prepared to close the hearing, but as is my practice, 
I am very happy to have you make any closing comments, if there 
is any question that we should have asked that you were primed 
to answer or just feel you need to answer. Is there anything?
    [No response.]
    Mr. Shays. Well, I thank you very much. I think we are all 
hungry, and you were a wonderful panel. Thank you for your 
patience.
    [Whereupon, at 1:42 p.m., the subcommittee was adjourned.]


</pre></body></html>
